NO.
IN THE
SUPREME COURT OF THE UNITED STATES
JAMIE SWARTZ and SANDRA SWARTZ
Petitioners
v.
HEARTLAND EQUINE RESCUE
RANDY LEE
JODI LOVEJOY
JO CLAIRE CORCORAN
DEBBIE MOORE
KELLY JO FITHIAN-WICKER
MARNIE BENNETT
MEGHAN COMBS

Respondents

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
PROOF OF SERVICE

Dale W. Arnett
Attorney of Record for Petitioners
IN Attorney No. 13919-68
Attorney at Law
102 E. Hospital Drive
Winchester, IN 47394
Phone (765) 584-2507
Fax (765) 584-2068
Email: larnett1@frontier.com

CERTIFICATE OF SERVICE
I hereby certify that on January 9, 2020, the required copies of the foregoing Writ were sent to
the following:
Christie A. Moore
BINGHAM GREENEBAUM DOLL LLP
101 South Fifth Street
3500 PNC Tower
Louisville, KY 40202
Counsel for Respondent Heartland Equine Rescue, Debbie Moore, Jo Claire Corcoran and Kelly
Jo Fithian-Wicker
Chris Gadansky
MCBRAYER PLLC
Suite 2400
500 West Jefferson Street
Louisville, KY 40202
Counsel for Respondent Randy Lee and Meghan Combs
Benjamin M. L. Jones
OFFICE OF THE ATTORNEY GENERAL
Fifth Floor
302 West Washington Street
Indiana Government Center South
Indianapolis, IN 46204
Counsel for Respondent Jodi Lovejoy

Crystal G. Rowe
KIGHTLINGER & GRAY LLP
Suite 200
3620 Blackiston Boulevard
Bonterra Building
New Albany, IN 47150
Counsel for Respondent Marnie Bennett

/s/ Dale Arnett
Dale W. Arnett #13919-68
102 E Hospital Drive
Winchester, IN 47394
Phone (765) 584-2507
Fax (765) 584-2068
Email: larnett1@frontier.com

